CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
5175 Parkstone Drive, Suite 200
Chantilly, Virginia 20151
(703) 480-5300 (800) 550-5328

THIS IS YOUR CREDIT CARD AGREEMENT AND DISCLOSURE CONTAINING NECESSARY FEDERAL TRUTHIN-LENDING DISCLOSURE STATEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF
YOUR VISA CLASSIC, VISA GOLD, VISA PLATINUM, FBINAA AFFINITY VISA, NSA AFFINITY VISA, LEEDA
AFFINITY VISA, NEIA AFFINITY VISA, NNALEA AFFINITY VISA, SFSAFBI AFFINITY VISA, AFFNA AFFINITY
VISA, ACA AFFINITY VISA, BLUE KNIGHTS AFFINITY VISA, SHARE SECURED VISA AND STUDENT VISA
CREDIT CARDS. PLEASE BE SURE TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF
ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases, Balance
Transfers and Cash Advances

0.00%

Introductory APR for 6 months (except for all previous credit union card
accountholders, and all Share Secured VISA accountholders).
After that, Your APR will be:

16.90% VISA Classic
13.90% VISA Gold
11.90% VISA Platinum
11.90% FBINAA Affinity VISA
11.90% ACA Affinity VISA
11.90% NSA Affinity VISA
11.90% LEEDA Affinity VISA

11.90% NEIA Affinity VISA
11.90% NNALEA Affinity VISA
11.90% SFSAFBI Affinity VISA
11.90% AFFNA Affinity VISA
11.90% Blue Knights Affinity VISA
16.90% Share Secured VISA
16.90% Student VISA

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within at least 23 days of Your statement closing date. We will begin charging
interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees





Cash Advance
Balance Transfer
Convenience Check
Foreign Transaction

Either 2.00% of the advance or $10.00, whichever is greater ($50.00 maximum)
None
Either 2.00% of the check or $10.00, whichever is greater ($50.00 maximum)
1.00% of each foreign currency transaction in U.S. dollars.
1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees



Late Payment
Returned Payment

Up to $27.00 after 10 days
Up to $27.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean the JUSTICE Federal Credit Union. The words "You" and "Your" mean each person who
accepts this Agreement or uses the VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA Affinity VISA, NEIA Affinity VISA,
NNALEA Affinity VISA, SFSAFBI Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA, Share Secured VISA or Student VISA Credit
Cards. "Account" means the VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA Affinity VISA, NEIA Affinity VISA, NNALEA
Affinity VISA, SFSAFBI Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA, Share Secured VISA and Student VISA Credit Card
Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 1 of 5

OTBS 016 VISA FRB_WEB JUST (11/17)
Rev. (12/17)

Account established for You. The words “Credit Card” or “Card” mean any VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA
Affinity VISA, NEIA Affinity VISA, NNALEA Affinity VISA, SFSAFBI Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA, Share
Secured VISA and Student VISA Credit Cards issued to You by Us and any duplicates and renewals. “Convenience Checks” mean the special Account access devices
We provide for Your use from time to time. If this is a joint account, read singular pronouns in the plural.
You understand the following terms constitute the Agreement:
PROMISE TO PAY. Your Account may be accessible through a variety of means which could include advance request forms, vouchers, checks, charge slips,
Credit Cards, Convenience Checks and the like. Regardless of the access means, You promise to pay Us all amounts charged to Your Account by You or by any
user who has access to Your Account, with actual, apparent or implied authority for use of Your Account, including Finance Charges and other fees or charges
described herein.
JOINT ACCOUNTS. Each Cardholder will be responsible, jointly and severally, for the repayment of amounts owed. You understand that any Card which is
requested and approved, will be mailed only to the primary Cardholder at the address that We have on file for You. We may refuse to follow any instructions which
run counter to this provision.
OWNERSHIP. All access devices remain Our property and may be cancelled by Us at any time without notice. You agree to surrender any such access device
and to discontinue its use immediately upon Our request.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any place that it is honored and to get cash advances from Us or another financial
institution. If You are issued a cash advance draft, it will be imprinted with Your Card and You will receive a copy of the draft. You agree not to use Your Card for
illegal transactions including, but not limited to, advances made for the purpose of gambling and/or wagering where such practices are in violation of applicable
state and/or federal law.
ISSUANCE OF PERSONAL IDENTIFICATION NUMBER. We will issue You a Personal Identification Number (PIN) for use with Your Card. This PIN is confidential
and should not be disclosed to anyone. You may use Your PIN and Your Card to access Your Account and all sums advanced will be added to Your balance. In the
event a use of Your PIN constitutes an Electronic Fund Transfer, the terms and conditions of Your Electronic Fund Transfer Agreement may affect Your rights.
LINE OF CREDIT LIMIT. If Your application for a Card is approved, You will be notified of Your specific Credit Limit for transactions made under Your Account.
Unless You are in default, the Credit Limit established for You will be self-replenishing as You make payments on Your Account. You will keep Your unpaid
balance within the Credit Limit set by Us, and You will pay any amount over the Credit Limit on Our demand whether or not We authorize the advance which
caused You to exceed Your Credit Limit. Even if Your unpaid balance is less than Your Credit Limit, You will have no credit available during any time that any
aspect of Your Account is in default.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Share Secured VISA, You agree to give Us a specific pledge of shares which will equal 110% of
Your Credit Limit. In the event that You default, We may apply these shares toward the repayment of any amount owed on Your Share Secured VISA. You may
cancel Your Share Secured VISA at any time by paying any amounts owed on Your Share Secured VISA and returning any access devices. To be certain that
Your entire balance and all advances are paid, any shares pledged may not be available to you for 30 days after You have cancelled Your Share Secured VISA
and any outstanding balance is paid in full.
FINANCE CHARGES. In the case of any transactions on Your Account, the balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). Separate average daily balances are calculated for purchases, balance transfers and cash
advances. To get each average daily balance, each daily balance for each day of the billing cycle for purchases, balance transfers and for cash advances are added
and the totals are divided by the number of days in the billing cycle. To get the daily balance for cash advances, new cash advances are added to the day's beginning
balance and payments and credits are subtracted. To get the daily balance for balance transfers, new balance transfers are added to the day's beginning balance and
payments and credits are subtracted. To get the daily balance for purchases, new purchases are added to the day's beginning balance and payments and credits are
subtracted. This gives Us the daily balance. We then add up all the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This
gives Us the Average Daily Balance. We then multiply the Average Daily Balances for purchases, balance transfers and cash advances by the Daily Periodic Rate
times the number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within a grace period which varies between 23
and 26 days from Your statement closing date depending on the number of days in the month. Otherwise, the new balance of purchases, and subsequent
purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash advances (including Convenience Checks) and balance
transfers are always subject to a Finance Charge from the date they are posted to Your Account and until such advances are paid in full.
For VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA Affinity VISA, NEIA Affinity VISA, NNALEA Affinity VISA, SFSAFBI
Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA and Student VISA, if You have not previously received a Credit Card from Us, the
Daily Periodic Rate for the six-month period immediately following the date Your Account is established will be .00000% (corresponding ANNUAL PERCENTAGE
RATE of 0.00%). Upon the expiration of any Introductory Rate period, Your Account will be subject to the Finance Charges provision of this Agreement.
The Daily Periodic Rate that will apply to Your VISA Classic Account is .04630% (corresponding ANNUAL PERCENTAGE RATE of 16.90%).
The Daily Periodic Rate that will apply to Your VISA Gold Account is .03808% (corresponding ANNUAL PERCENTAGE RATE of 13.90%).
The Daily Periodic Rate that will apply to Your VISA Platinum Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your FBINAA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Periodic Rate that will apply to Your NSA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your LEEDA Affinity VISA Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your NEIA Affinity VISA Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your NNALEA Affinity VISA Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your SFSAFBI Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your AFFNA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 2 of 5

OTBS 016 VISA FRB_WEB JUST (11/17)
Rev. (12/17)

The Daily Periodic Rate that will apply to Your ACA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your Blue Knights Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your Share Secured VISA is .04630% (corresponding ANNUAL PERCENTAGE RATE of 16.90%).
The Daily Periodic Rate that will apply to Your Student VISA Account is .04630% (corresponding ANNUAL PERCENTAGE RATE of 16.90%).
MINIMUM MONTHLY PAYMENT. Though You need only pay the Minimum Monthly Payments, You understand that You have the right to repay Your Account or
make larger payments at any time without penalty. You will only be charged periodic Finance Charges to the date You repay Your entire Account balance. Any
partial payment or prepayment of Your Account will not delay Your next scheduled payment. All payments to Us must be in lawful money of the United States.
Payments will be applied in the following order: (a) any Late Charges due; (b) any Finance Charges due; (c) the balance for purchases; (d) the balance for balance
transfers; and then to (e) the balance for cash advances. Any amounts paid in excess of the Minimum Monthly Payment will first be applied to the balance bearing
the highest rate of interest, and then to each successive balance bearing the next highest rate of interest, until the payment is depleted.
Any unpaid portion of any Finance Charges and Late Charges will be paid by subsequent payments and will not be added to the principal. You understand that
any payment that delays the repayment of Your unpaid balance will increase Your Finance Charge and any payment that accelerates the reduction of Your unpaid
balance will decrease Your Finance Charges.
Minimum Monthly Payments for VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA Affinity VISA, NEIA Affinity VISA,
NNALEA Affinity VISA, SFSAFBI Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA, Share Secured VISA and Student VISA will be
an amount equal to 2.00% of Your unpaid VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA Affinity VISA, NEIA Affinity
VISA, NNALEA Affinity VISA, SFSAFBI Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA, Share Secured VISA or Student VISA
balance, subject to the lesser of $30 or Your balance. In addition to the Minimum Monthly Payment, You will also be required to pay any portion of any prior
payments due which remain unpaid.
CONSENSUAL LIEN. As permitted by law, You grant and consent to a lien on Your shares or other deposit accounts with Us (other than those
deposits established under a governmental-approved tax deferral plan such as an IRA or Keogh account) and any dividends due or to become due
to You from Us to the extent You owe on any unpaid Credit Card balance.
OTHER SECURITY. Personal property (other than household goods or any dwelling) given as Security for any loan You may have with Us will secure all amounts
You owe Us now and in the future.
PERIODIC STATEMENT. On a regular basis, You will receive a statement showing all transactions on Your Account including amounts paid and borrowed since
Your last statement. We will mail You a statement each billing cycle in which there is a debit or credit balance or when a Finance Charge is imposed. We need not
send You a statement if We feel Your Account is uncollectible or if We have started collection proceedings against You because You defaulted. Each statement is
deemed to be a correct statement of account unless You establish a billing error pursuant to the Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no obligation to honor Your Convenience Checks if: (1) by paying a
Convenience Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have been reported lost or stolen; (3) Your Account has been
cancelled or has expired; and (4) a Convenience Check is used for payment on this or any other loan Account with Us. If a postdated Convenience Check is paid
and, as a result, any other Convenience Check is returned unpaid, We are not responsible for any resulting loss or liability.
TRANSACTION SLIPS. Your periodic statement will identify the merchant, electronic terminal or financial institution at which transactions were made, but sales,
cash advances, credit or other slips will not be returned with the statement. You will retain the copy of such slips furnished at the time of the transaction in order to
verify Your monthly statement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or adjustments, the merchant will do so by sending Us a slip which will be posted to
Your Account. If Your credits and payments exceed what You owe Us, We will hold and apply this credit against future purchases and cash advances, or if it is
$1.00 or more, refund it on Your written request or automatically deposit it to Your Share Account after six months.
LATE CHARGE. If Your payment is more than 10 days late, You will be charged the lesser of: (a) the amount of the minimum payment due; or (b) $27.
OTHER FEES AND CHARGES. You agree to pay Us the following fees and charges associated with the use of Your Card which will be charged to Your Account
as purchases: (a) the lesser of $27 or the required minimum payment amount for any check (or other negotiable instrument used for payment on Your Account)
that is returned unpaid; (b) $30 for each Convenience Check that is returned unpaid; (c) $20 for every stop payment that You request on a Convenience Check; (d)
$1 per page for statement copies and $5 per copy for sales drafts that You request that are unrelated to a valid billing error dispute; (e) $15 per hour for research
on Your Account that You request that is unrelated to a valid billing error dispute, subject to a $15 minimum charge; (f) $10 for each replacement Card that You
request; (g) a cash advance fee FINANCE CHARGE equal to the greater of 2.00% of the amount advanced or $10.00, subject to a maximum of $50.00; and (h) a
convenience check fee FINANCE CHARGE equal to the greater of 2.00% of the amount of the check or $10.00, subject to a maximum of $50.00.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to Us while You owe money on Your Account; or (d) A judgment or tax lien should
be filed against You or any attachment or garnishment should be issued against any of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability to repay Your indebtedness hereunder is or
soon will be impaired, time being of the very essence.
If You are in default, We may, without notice or demand, and to extent permitted by law, cancel Your rights under this Agreement, declare the entire unpaid
balance immediately due and payable and require the return of all Cards and other Account Access devices.
COLLECTION COSTS. To the extent permitted by law, You will reimburse Us for all of Our costs and expenses, including reasonable attorney fees incurred in the
course of collecting any amounts owed under this Agreement or for the recovery of any collateral.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit under this Agreement. However, You may purchase any credit insurance
available through Us and have the premiums added to the outstanding balance of Your Account. If You elect to do so, You will be given the necessary disclosures
and documents separately. Any credit insurance premiums will be charged to Your Account as a purchase.
Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 3 of 5

OTBS 016 VISA FRB_WEB JUST (11/17)
Rev. (12/17)

ENFORCEMENT. We do not lose Our rights under this or any related agreement if We delay enforcing them. We can accept late payments, partial payments, or
any other payments, even if they are marked “paid in full” without losing any of Our rights under this Agreement. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force and effect.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Account. You will not be liable for the unauthorized use that occurs after You notify Us
of the loss, theft, or possible unauthorized use by calling Us at (866) 820-3036 or by writing to us at the address shown in this Agreement. In any case, Your
liability will not exceed $50.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly, in writing, if You move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or delivering to You written notice of the changes as prescribed by the Federal
Truth-In-Lending Act. To the extent permitted by law, the right to change the terms of this Agreement includes, but is not limited to, the right to change the periodic
rate applicable to Your unpaid balance and/or future advances.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for the refusal or inability of merchants, financial institutions and others to accept the
Cards or Convenience Checks, or electronic terminals to honor the Cards or complete a Card withdrawal, or for their retention of the Cards or Convenience Checks.
LOST OR STOLEN CARDS, ACCOUNT NUMBERS AND/OR CONVENIENCE CHECKS. To report a lost or stolen Card, Convenience Check or Account
Number at any time, You will immediately call Us at (866) 820-3036. You may also write to Us at 5175 Parkstone Drive, Suite 200, Chantilly, VA 20151.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives; or (b) the government-mandated rate in effect for the applicable central processing date. In
each instance, plus a 1.00% fee.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other slips You may sign or receive when using the Card contain terms, this
Agreement is the contract which solely applies to all transactions involving Your Account.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement. By signing the Application and Your Credit Card, by using the Card, by using
Your Account or by authorizing another to use Your Account, You agree to accept its terms.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional Disclosure - Federal Truth-In-Lending Act" which is delivered to You and relates to
this Agreement is an integrated part of this Agreement and Disclosure.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts to update personal information or other financial information related to You, at
Our request. You also agree that We may, from time to time, as We deem necessary, make inquiries pertaining to Your employment, credit standing and financial
responsibility in accordance with applicable laws and regulations. You further agree that We may give information about the status and payment history of Your
Account to consumer credit reporting agencies, a prospective employer or insurer, or a state or federal licensing agency having any apparent legitimate business
need for such information.
TERMINATION. Subject to applicable law, either You or We may cancel Your Account at any time whether or not You are in default. You will, in any case, remain
liable to pay any unpaid balances according to the terms of this Agreement.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the Commonwealth of Virginia except to the extent that such laws are inconsistent
with controlling federal law.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in this Agreement. In Your letter, give us the following information:




Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what You believe is wrong and why You believe it is a mistake.

You must contact Us:



Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do We are not required to investigate any potential errors and You may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1)
2)

Within 30 days of receiving Your letter, We must tell You that We received Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:





We cannot try to collect the amount in question, or report You as delinquent on that amount.
The charge in question may remain on Your statement, and We may continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 4 of 5

OTBS 016 VISA FRB_WEB JUST (11/17)
Rev. (12/17)

After We finish Our investigation, one of two things will happen:



If We made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill. We must tell You the name of anyone to whom we reported You as delinquent,
and We must let those organizations know when the matter has been settled between Us. If We do not follow all of the rules above, You do not have to pay the
first $50 of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the purchase. To use this right, all of the following must be true:
1)

2)
3)

The purchase must have been made in Your home state or within 100 miles of Your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if Your purchase was based on an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase, contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You as delinquent.

Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 5 of 5

OTBS 016 VISA FRB_WEB JUST (11/17)
Rev. (12/17)

5175 Parkstone Drive, Suite 200
Chantilly, Virginia 20151
(703) 480-5300 (800) 550-5328

PRICING INFORMATION ADDENDUM –
CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR VISA CLASSIC, VISA GOLD, VISA
PLATINUM, FBINAA AFFINITY VISA, NSA AFFINITY VISA, LEEDA AFFINITY VISA, NEIA AFFINITY VISA, NNALEA
AFFINITY VISA, SFSAFBI AFFINITY VISA, AFFNA AFFINITY VISA, ACA AFFINITY VISA, BLUE KNIGHTS AFFINITY
VISA, SHARE SECURED VISA AND STUDENT VISA CREDIT CARD AGREEMENT AND DISCLOSURE. PLEASE BE
SURE TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases, Balance
Transfers and Cash Advances

0.00%

Introductory APR for 6 months (except for all previous credit union card
accountholders, and all Share Secured VISA accountholders).
After that, Your APR will be:

16.90% VISA Classic
13.90% VISA Gold
11.90% VISA Platinum
11.90% FBINAA Affinity VISA
11.90% ACA Affinity VISA
11.90% NSA Affinity VISA
11.90% LEEDA Affinity VISA
Paying Interest

11.90% NEIA Affinity VISA
11.90% NNALEA Affinity VISA
11.90% SFSAFBI Affinity VISA
11.90% AFFNA Affinity VISA
11.90% Blue Knights Affinity VISA
16.90% Share Secured VISA
16.90% Student VISA

We will not charge You interest on purchases if You pay Your entire balance owed each
month within at least 23 days of Your statement closing date. We will begin charging
interest on cash advances and balance transfers on the transaction date.

Fees
Annual Fee

None

Transaction Fees





Cash Advance
Balance Transfer
Convenience Check
Foreign Transaction

Either 2.00% of the advance or $10.00, whichever is greater ($50.00 maximum)
None
Either 2.00% of the check or $10.00, whichever is greater ($50.00 maximum)
1.00% of each foreign currency transaction in U.S. dollars.
1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees



Late Payment
Returned Payment

Up to $27.00 after 10 days
Up to $27.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
FINANCE CHARGES. In the case of any transactions on Your Account, the balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). Separate average daily balances are calculated for purchases, balance transfers and cash
advances. To get each average daily balance, each daily balance for each day of the billing cycle for purchases, balance transfers and for cash advances are added
and the totals are divided by the number of days in the billing cycle. To get the daily balance for cash advances, new cash advances are added to the day's beginning
balance and payments and credits are subtracted. To get the daily balance for balance transfers, new balance transfers are added to the day's beginning balance and
payments and credits are subtracted. To get the daily balance for purchases, new purchases are added to the day's beginning balance and payments and credits are
subtracted. This gives Us the daily balance. We then add up all the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This
gives Us the Average Daily Balance. We then multiply the Average Daily Balances for purchases, balance transfers and cash advances by the Daily Periodic Rate
times the number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within a grace period which varies between 23
and 26 days from Your statement closing date depending on the number of days in the month. Otherwise, the new balance of purchases, and subsequent
Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 1 of 2

OTBS 016A VISA FRB_WEB JUST (11/17)
Rev. (12/17)

purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash advances (including Convenience Checks) and balance
transfers are always subject to a Finance Charge from the date they are posted to Your Account and until such advances are paid in full.
For VISA Classic, VISA Gold, VISA Platinum, FBINAA Affinity VISA, NSA Affinity VISA, LEEDA Affinity VISA, NEIA Affinity VISA, NNALEA Affinity VISA, SFSAFBI
Affinity VISA, AFFNA Affinity VISA, ACA Affinity VISA, Blue Knights Affinity VISA and Student VISA, if You have not previously received a Credit Card from Us, the
Daily Periodic Rate for the six-month period immediately following the date Your Account is established will be .0.00000% (corresponding ANNUAL
PERCENTAGE RATE of 0.00%). Upon the expiration of any Introductory Rate period, Your Account will be subject to the Finance Charges provision of this
Agreement.
The Daily Periodic Rate that will apply to Your VISA Classic Account is .04630% (corresponding ANNUAL PERCENTAGE RATE of 16.90%).
The Daily Periodic Rate that will apply to Your VISA Gold Account is .03808% (corresponding ANNUAL PERCENTAGE RATE of 13.90%).
The Daily Periodic Rate that will apply to Your VISA Platinum Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your FBINAA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Periodic Rate that will apply to Your NSA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your LEEDA Affinity VISA Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your NEIA Affinity VISA Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your NNALEA Affinity VISA Account is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your SFSAFBI Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your AFFNA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your ACA Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your Blue Knights Affinity VISA is .03260% (corresponding ANNUAL PERCENTAGE RATE of 11.90%).
The Daily Periodic Rate that will apply to Your Share Secured VISA is .04630% (corresponding ANNUAL PERCENTAGE RATE of 16.90%).
The Daily Periodic Rate that will apply to Your Student VISA Account is .04630% (corresponding ANNUAL PERCENTAGE RATE of 16.90%).

Copyright Oak Tree Business Systems, Inc., 2010-2017. All Rights Reserved.

Page 2 of 2

OTBS 016A VISA FRB_WEB JUST (11/17)
Rev. (12/17)

